Q Srnithsonian Institution                                                                Memo
          Office of the Inspector General


  Date    March 3,2005

    To    Lawrence M. Small, Secretary
     cc   Sheila P. Burke, Deputy Secretaryand Chief Operating Officer
          James D. Douglas, Director, Office of Human Resources
                                              Officer


                                        nspector General
Subject   ~ a h e nAdvisory
                      t       Report (A-04-11)
          Human Resource Planning System Implementation
          The Office of the Inspector General (OIG) contracted with Project Auditors LLC to
          conduct a review of the Smithsonian Institution's (SI) Peoplesoft Human Resources
          implementation project. The purpose was twofold:
              (1) to determine whether the Smithsonian's Office of Human Resources Enterprise
                  Resource Planning (HR ERP) project management controls were adequate to
                  provide reasonable assurances that the project identified all relevant Human
                  Capital requirements under federal law, including Office of Personnel
                  Management guidance, regulations, and requirements, as well as Smithsonian
                  Trust guidance and standards; and
              (2) to determine whether the Smithsonian's HR ERP project management plans and
                  technical system implementation plans, processes, and actions were adequate to
                  meet federal and Smithsonian trust human capital requirements.
          As explained below, the review revealed that the HR ERP project has experienced
          schedule delays requiring the amendment of the implementation dates and product, and
          was beginning to incur cost overruns. The review also examined additional issues,
          including questionable contracting practices and inaccurate reporting of data.
          The review also revealed that:
                 the SI User community was heavily and successfullyinvolved in the project;
                 many SI Unit staff members have been trained on the HR ERP system and are
                 looking forward to the new system;
                 project communications with the SI Units were very good; and
                 portions of the HR ERP have been completed and are functional.
          This review focused on adherence to SI policies in the planning, implementation and cost
          control of this complex project. The OIG is mindful that portions of the HR ERP have
          been successfully completed. We note, however, that when project goals and milestones
          are routinely amended without controls being in place to monitor schedules, cost, and
          scope, it is difficult to quantify and recognize the success.
          The OIG has met with the responsible officials to discuss the observations contained in
          this report and to update the data contained herein. The OIG has taken their comments
          into consideration.
Scope and Methodology
This review covered the Office of Human Resources (OHR) HR ERP system project
implementation and was conducted from October 13,2004, to December 17,2004, in
accordance with generally accepted government auditing standards. The methodology
consisted of the following:

         ldentifylng and reviewing applicable Institution policies and procedures related to
         the system development life cycle and project management;
         Evaluating project management plans and technical system implementation plans;
         Evaluating project management controls over scope, budget and schedule; and
         Evaluating project management controls over Human Capital requirements
         required by applicable government regulations.

As part of the review, interviews were conducted with staff from OHR and the Office of
the Chief Information Officer (OCIO) at the Smithsonian offices in Washington, DC.
The contract auditors also interviewed staff from operating units wh~~participatedin
worlung groups as well as staff at the National Finance Center (NFC), United States
Department of Agriculture (USDA). A web survey of administrative officers, working
group members, and team members was also conducted.
Final meetings were held by the OIG with the responsible SI managers in February 2005
to determine the current status of the project.

Background
The Smithsonian Institution is in the midst of replacing and modernizing its human
resources management systems. The initial focus was on replacing the SI's financial
system with a commercial Financial System ERP. The HR ERP project was to begin in FY
2003 after Phase I of the SI's Financial System ERP replacement became operational.
To ensure and monitor success, the SI has published two directives covering project
management planning and processing: Information Technology (IT)Planning
(Smithsonian Directive [SD] 910), and Life Cycle Management (LCM) (SD 920). These
directives lay out well-defined strategies for gathering and managing IT project
requirements and, unless waived by the Chief Information Officer, apply to all SI
personnel and contractors responsible for IT infrastructure projects.
SI established a HR ERP Team to manage the human resources system implementation
composed of representatives of the OCIO, and working groups representing Smithsonian
staff, the implementation contractor, and a quality assurance contractor.
Ensuring human resources requirements were identified and that the system was useful,
as well as overseeing the overall project, was the responsibility of the sponsor, the OHR.
Budgeting, technical implementation of the sponsor's human resources requirements and
oversight of the contractor were the responsibility of the OCIO.




' The NFC processes the Smithsonian payroll and is the Smithsonian's system of record for both payroll and personnel.
The HRFRP Team planned to implement the HR ERP in two phases budgeted at $8.8
million.

         Phase I: human resources modules including Human Resources, Time and Labor
         and Payroll Interface were to be deployed by April 2004 and were budgeted at $5.6
         million for 2003 and 2004.
         Phase 11:the Benefits Administration module was to be deployed by October 2005
         and was budgeted at $3.2 million for 2005.

The specific goals of the HR ERP project are to:

         Streamline labor-intensive human resource management processes
         Eliminate multiple key entry of data (duplication of effort)
         Improve the accuracy of human resource data
         Increase productivity of administrative support staff
         Allow work to be performed and tracked electronically
         Improve quality and timeliness of work products
         Provide online, real-time human resources management information reporting.

According to the May 2001 Smithsonian Institution System Boundary Document, HR ERP
project success is contingent on meeting the following critical success factors:

         Business Process: Adapting Smithsonian processes to the ERP software product to
         streamline business processes and assure speedy, cost-effective implementation.
         Funding: Adequately funding the project to support production and
         enhancements.
         Usefulness: Implementing an ERP system that serves the needs of all users from
         the lowest unit administrative officer to the Secretary.
         Training: Providing training and support to staff administering and using the
         ERP system, and training the administrative workforce in moving from paper
         processing to electronic processing.

This review also compared $he HR ERP to the Smithsonian's information technology (IT)
implementation standards.




  The May 2001 System Boundary Document for the Enterprise Resource Planning System contains the Phase I and Phase
I1 deployment schedule.The budgeted amounts for Phase I and I1 are from the annual Office of Management and Budget
appropriation submissions(Exhibit 300) for FY 2001.
  Smithsonian Directive (SD) 910, Information Technology Planning, August 28,2002, defines the Control Stage of
IT projects by stating: "Guided by life cycle management principles, monitor interim results of IT projects and take
action to ensure that benefits are achieved. To help manage and control projects, IT project managers will prepare
detailed plans using project management control software." SD 920, Life Cycle Management, August 5 , 2002, requires
that certain steps in the design, development,and implementation of a system be logically and sequentially planned.
There are six defined implementation steps: (1) initiation; (2) concept and requirements definition; (3) detailed
analysis and design; (4) development and testing; (5) deployment;and (6) operations.
In addition to the above, the primary SI standards that were used to evaluate the HR ERP prqject management planning
and processes were the OCIO's Project Management Manual (IT-910-01) and the Life Cycle Management standard (IT
920-01).
RESULTS
Schedule Delays and Cost Overruns
The plan was to implement four HR ERP modules in two phases. The first phase was to
include three modules (Human Resources, Time and Labor, and Payroll Interface) and
was scheduled to be implemented by April 2004 at a cost of $5.6 million. The second
phase included one module (Benefits Administration) and was scheduled to be
implemented by October 2005 at a cost of $3.2 million.
The plan was later changed to four phases. The first phase, estimated at $4.3 million, now
included only the Human Resou~cesand Payroll Interface modules. The remaining three
phases, estimated at $2.9 million ,will include the Benefits Administration module. The
Time and Labor module, however, which is estimated at $4.3 million, is no longer
included in the remaining phases of the HR ERP. The Time and Labor module has been
moved to the financial system ERP for inclusion into that system in FY 2006 or FY 2007.
Instead of accomplishing these revised project management goals on schedule and within
budget, the SI implemented the amended first phase (Human Resources and Payroll
Interface modules) in December 2004 at a reported cost of $4.7 million. The actual cost,
howeyer, is likely more. The scope of work was changed and reduced from the original
plans. We were unable to compare the project's actual costs to the original phased
budget, and management could not provide us with that information. As management
acknowledged, "it is not possible to provide an exact breakout of the original estimate to
the phase one modules."
The remaining three phases are reportedly on schedule, with the final phase scheduled to
be completed in September 2005.
Further schedule delays or cost overruns may require the Institution either to obtain
additional funding in the future to complete the remaining modules or to accept less
functionality than originally planned.

Questionable Contracting Practices
The HR ERP contractor that was hired6did not have the personnel with the appropriate
experience on board to perform the duties specified in this contract when the contract
was awarded. Appropriate personnel were hired subsequent to the award. This raises
questions as to the process used to solicit and award the contract. In addition, the HR
ERP contract changed from a fixed-price contract to a time-and-materials contract. This
change increased the Institution's risk of project cost overruns since the responsibility to
control costs shifted from the contractor to the Institution.




 There are differences in scope between the OMB-300, dated Sept. 10,2004, and the Project Management Plan, dated
Oct. 4, 2004.

  While the reported budget is only slightly exceeded, it is also underestimated -- albeit within SI rules. The project
costs were actually higher than reported because a significant amount of work was done by SI personnel without being
charged to the project. The current rule requires that only personnel who are on the project for more than 51% of their
time charge their time, hence cost, to the budget of the project. If the SI followed a tighter budget control formula, the
actual costs would be higher.

'   he contractor that was selected was the same contractor the SI used to implement its Financial Systems ERP.
Inaccurate Reporting
We found the Office of Management and Budget (OMB) E$bit 300, filed by SI on
September 10,2004, was inaccurate and should be amended. The OMB-300 stated, "The
ERP Human Resources Management System (ERE' HRMS) is on track for initial
deployment in October 2004."
The system was not on track. F?r example, by September 10,2004, the problems with the
NFC interface were well known. Pilot testing conducted in June and July 2004 showed
that between 20% and 50% of the transactions sent to the NFC were unsuccessful. This
was not only a highly critical interface but a very complex one. Yet the official decision to
delay to the go-live date was not made until October 2004.

CONCLUSION
The review conducted on behalf of the OIG reports both positive and negative
developments in the implementation of the HR ERP. Portions of the HR ERP have been
completed and are functional. However, much remains to be done before this project
can be labeled a success. Many of the problems outlined in this review are not new to the
Institution. Earlier OIG reports have documented systemic difficulties the Institution has
had in monitoring large, complex projects, and managing them to a budget. The
Institution has developed well-crafted Directives to help guide itself through these
projects, but we have found that the Institution has difficulty following its Directives.
Accordingly, we would suggest that OCIO establish a position of Project Management
Officer to help monitor and coordinate OCIO projects.


We understand and acknowledge that managers have a responsibility to be concerned
about both the results of a project as well as the process used to achieve those results. We
are equally concerned that the end results of a project meet all of the project's predefined
needs and cost. We suggest that the OCIO ensure that SI directives mandating project
management principles and standards under their auspices are followed, or that they be
amended to meet the realities of SI project management. We are also concerned with the
inadequate reporting to OMB and suggest that OCIO file an amended and updated
OMB-300 to accurately reflect the current state of the HR ERP project. Inasmuch as this
is the second time we note reporting problems to OMB, we suggest that the OCIO
institute a formal review and approval process to ensure all future filings are accurate.




 This same problem was also noted in the Enterprise Resources Planning Financial Services Implementation audit
conducted by this Office. (OIG A-03-07, March 21, 2004)

We also note that internal status reports on the HR ERP project were not regularly completed and apparently were
suspended in August 2004. Weekly status reports resumed in January 2005.

  The NFC is a critical interface. Interface testing began almost a year ago. This review found that transaction
acceptance rates in October were less than optimal. This was a contributing factor to the go-live date being delayed
from October 1,2004 to December 2004. Testing time for the NFC interface is limited, but the schedule for those
times is published months in advance. Although discussed during the review as a problem, we believe that this
restriction should not have been a problem.
